No. 20-1767

In the
Supreme Court of the United States
Sarasota Wine Market, LLC, et al.,
Petitioners,
v.
Eric S. Schmitt, Attorney General of Missouri, et al.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that all parties required to be served notice of the 14-day
waiver have been served through the Court’s electronic filing system and by
electronic mail to:
D. John Sauer
Solicitor General of Missouri
Counsel of Record for Respondents
207 West High Street, P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
September 13, 2021

s/ James A Tanford
James Alexander Tanford
Counsel of Record for Petitioners
Epstein Cohen Seif & Porter LLP
50 S. Meridian St., Suite 505
Indianapolis IN 46204
Tel: 812-332-4966
Fax: 317-638-9891
tanford@indiana.edu

